      Department of Homeland Security





        U.S. Citizenship and Immigration Services’ 

    Management Letter for FY 2012 DHS Consolidated 

                 Financial Statements Audit 





OIG-13-57                                        April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 3 2013

MEMORANDUM FOR:              Joseph Moore
                             Chief Financial Officer
                             U.S. Citizenship and Immigration Services

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     U.S. Citizenship and Immigration Services’ Management
                             Letter for FY 2012 DHS Consolidated Financial Statements
                             Audit

Attached for your information is our final report, U.S. Citizenship and Immigration
Services’ Management Letter for FY 2012 DHS Consolidated Financial Statements Audit.
This report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the
fiscal year (FY) 2012 DHS Annual Financial Report. We do not require management’s
response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security United States Citizenship and Immigration Services
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The United States Citizenship and Immigration Services (USCIS) is a component of DHS. We noted
certain matters, related to USCIS, that are summarized in the Table of Financial Management Comments
on the following pages, involving internal control and other operational matters that are less severe than a
material weakness or a significant deficiency, and consequently are reported separately to the Office of
Inspector General (OIG) and USCIS management in this letter. These comments and recommendations, all
of which have been discussed with the appropriate members of management, are intended to improve
internal control or result in other operating efficiencies. The disposition of each internal control deficiency
identified during our FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is
presented in Appendix A. The status of internal control deficiencies identified during our FY 2011 audit is
presented in Appendix B. Our findings related to information technology systems security have been
presented in a separate letter to the OIG and the USCIS Chief Information Officer and Chief Financial
Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and USCIS’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                           United States Citizenship and Immigration Services
                               Table of Financial Management Comments
                                          September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC) 


 Comment

 Reference     S
               
 ubject                                                                          Page

FMC 12-01 
   Inadequate Policies and Procedures over the Review of Personnel Actions             2
FMC 12-02 
    Insufficient Reconciliation between the Purchase Request Information System        2
               (PRISM) and Federal Financial Management System (FFMS)
FMC 12-03 
    Potential Non-Compliance with Office of Government Ethics (OGE) Form 450           3
               Filing Requirements
FMC 12-04 
    USCIS Contracting Officers Disregarded DHS Invoice Approval Requirements           3
FMC 12-05 
    Insufficient Review of Journal Entries                                             3
FMC 12-06 
    Inaccurate Data in the Claims 3, Claims 4, and Marriage Fraud Amendment Systems    4
FMC 12-07 
    Insufficient Review of Deposit Transactions                                        4
FMC 12-08 
    Inadequate Monitoring of Fee Table Changes in Deferred Revenue Estimate Process    4
FMC 12-09 
    Deficiencies in the Recording of Internal Use Software                             5
FMC 12-10 
    Deficiencies in the Timely Recording of Capital Equipment                          5

APPENDIX

 Appendix      Subject                                                                           Page

     A         Crosswalk – Financial Management Comments to Active Notices of Finding and         7

               Recommendation (NFRs)

     B         Status of Prior Year NFRs                                                          8





                                                    1

                          United States Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Inadequate Policies and Procedures over the Review of Personnel Actions (NFR No.
USCIS 12-01)

       During the walkthrough over the processing of Standard Form (SF)-52 forms, KPMG noted that
       prior to May 1, 2012, the same individual could request and authorize the personnel actions. As
       such, KPMG determined that prior to May 1, 2012, United States Citizenship and Immigration
       Services (USCIS) did not have proper segregation of duties in place over the processing of SF­
       52s.

       Recommendations:
       We recommend that USCIS:
       •	 Human Resources Operations Center (HROC) continues to monitor the status of Electronic
          System for Personnel (ESP) roles and responsibilities. The Systems Team should conduct a
          quarterly review with its customers (as already highlighted in the updated Standard Operating
          Procedures) to ensure accuracy of roles and thus comply with the requirement to separate
          roles within ESP.
       •	 The Quality Team within HROC should conduct periodic internal audits to ensure accuracy
          and completeness of the corrective action.

FMC 12-02 – Insufficient Reconciliation Between the Purchase Request Information System
(PRISM) and Federal Financial Management System (FFMS) (NFR No. USCIS 12-02)

       USCIS did not sufficiently address the risk that obligation data from PRISM is not recorded
       timely into FFMS for the period from October 1, 2011 – May 31, 2012. USCIS performed a
       reconciliation of data from USASpending.gov to FFMS during this period. However, we
       identified that this process causes USCIS to inadvertently rely on the transfer of information from
       Federal Procurement Data System – Next Generation to USASpending.gov. USCIS did not
       implement other procedures to assess the completeness and accuracy of the data transfer from
       Federal Procurement Data System – Next Generation to USASpending.gov.

       We noted that USCIS performed a review of open commitments, which partially mitigates the
       condition noted above. However, the review was not performed regularly (e.g., quarterly), and is
       not formally documented with management review and approval. As of June 30, 2012, USCIS
       had performed the open commitments review twice: once in February and once in May.

       We also noted that USCIS retroactively reconciled PRISM to FFMS for the period October 1,
       2011 – May 31, 2012 on June 5, 2012.

       Recommendation:
       We recommend that USCIS continue to perform a monthly reconciliation of PRISM to FFMS as
       was started in June 2012.




                                                   2

                          United States Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-03 – Potential Non-Compliance with Office of Government Ethics (OGE) Form 450 Filing
Requirements (NFR No. USCIS 12-03)

       USCIS did not obtain and review all of the required OGE Form 450 Confidential Financial
       Disclosure Report forms from its employees by the February 15, 2012, deadline. This deadline is
       imposed by the OGE.

       Recommendation:
       We recommend that USCIS ensure that the OGE Form 450 policies and procedures are
       understood and implemented.

FMC 12-04 – USCIS Contracting Officers Disregarded DHS Invoice Approval Requirements (NFR
No. USCIS 12-04)

       During FY 2012, USCIS identified that contracting officers (COs) within the Contract
       Administration Division provided Contracting Specialists with pre-signed labels for use in
       approving invoices on cost-type contracts where CO approval is required.

       The pre-signed labels were typically used by Contracting Specialists when there was uncertainty
       as to whether an invoice for a cost-type contract would be approved in a timely manner (e.g.,
       when the CO was out of the office).

      Recommendation:
      There are no recommendations as corrective action was taken during FY 2012.

FMC 12-05 – Insufficient Review of Journal Entries (JEs) (NFR No. USCIS 12-05)

       KPMG selected 45 manual JEs for control and substantive testwork, and noted the following
       errors:

       •	 General Journal # 15099548: USCIS recorded the reclassification of balances within Treasury
          Account Fund Symbols (TAFS) 705106 using the incorrect percentages to allocate the funds
          between trading partners 16, 49 and 70. As a result of the error, trading partner balances
          totaling approximately $10 million were misstated within the following Standard General
          Ledger (SGL) accounts:
          - 2985, Liability for Non-Entity Assets Not Reported on the Statement of Custodial Activity;
          - 5993, Offset to Non-Entity Collections - Statement of Changes in Net Position; and
          - 5994, Offset to Non-Entity Accrued Collections - Statement of Changes in Net Position.

       KPMG noted that the overall SGL balances were correct, but that the individual trading partner
       balances within the SGL account were misstated.

       Recommendations:
       We recommend that USCIS:
       •	 Automate the calculation of the trading partner allocation to reduce the potential for using the
          incorrect allocation percentages.
       •	 Periodically check the allocation balance to ensure the recorded allocation by trading partner
          is consistent with the required allocation.


                                                   3

                          United States Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-06 – Inaccurate Data in the Claims 3 (C3), Claims 4 (C4), and Marriage Fraud
Amendment Systems (MFAS) (NFR No. USCIS 12-06)

       KPMG conducted testwork over the FY 2012 third and fourth quarter list-to-floor audits and
       noted the following:
       •	 In the third quarter of the audit, 179 of the 680 samples, or 26.3%, were determined to be not
           pending by USCIS. In the fourth quarter of the audit, 207 of the 680 samples, or 30.4%, were
           determined to be not pending by USCIS. These error rates are indicative of a deficiency in
           internal control in the application adjudication process and exist on USCIS’s largest
           application tracking systems: C3, C4 and MFAS.
       •	 The deferred revenue quarterly sampling and verification process identifies discrepancies in
           the status of applications where errors between the system query results and the hard copy
           application exist; however, the faulty data was not corrected within the systems.

      Recommendation:
      We recommend that USCIS focus on the controls and reporting functions incorporated in
      Electronic Immigration System to ensure the new application tracking system will allow for the
      direct reporting of the deferred revenue. The controls over the application status should
      eventually allow USCIS to retire their legacy tracking systems and replace the current estimation
      process.

FMC 12-07 – Insufficient Reivew of Deposit Transactions (NFR No. USCIS 12-07)

      During testwork over a sample of 45 deposits, we noted that for 5 transactions, the Burlington
      Finance Center recorded a portion of the deposit amount to the incorrect item type. In each
      instance, the amount of the entry was correct and the item types (incorrect and correct) were
      recorded within the correct TAFS. As such, no financial statement misstatement was identified as
      a result of the errors.

      Recommendation:
      We recommend that USCIS and Immigration and Customs Enforcement (ICE) evaluate the errors
      made and implement the controls that are deemed necessary for this process, possibly including
      an automation of this process where possible.

FMC 12-08 – Inadequate Monitoring of Fee Table Changes in Deferred Revenue Estimate Process
(NFR No. USCIS 12-08)

       KPMG performed testwork over the third quarter list-to-floor samples and noted the following:
       •	 The original fee amount per the system did not agree to the historical fee table for 260 of the
          680 samples. Of the errors noted, 186 samples were C3 applications and 74 were MFAS
          applications.
       •	 The current fee table became effective on November 23, 2010. The C3 and MFAS systems
          were not properly coded to pull the new fee amounts for applications with receipt dates after
          November 23, 2010.




                                                   4

                          United States Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2012


      Recommendation:
      There are no recommendations as USCIS remediated the deficiency in the current year, and we
      performed testwork over the remediation, noting no exceptions.

FMC 12-09 – Deficiencies in the Recording of Internal Use Software (IUS) (NFR No. USCIS 12-09)

      As a result of USCIS’s review of Office of Transformation Coordination and Office of the Chief
      Information Officer costs, USCIS recorded the following corrective adjustments to the IUS
      balance:
      •	 USCIS recorded prior year adjustments to IUS of $30.1 million.
      •	 USCIS identified ten new IUS projects for which costs were previously recorded as expenses.
         Three of the ten projects were initiated in prior years.

      During testwork over the Office of Transportation Coordination projects as of June 30, 2012 and
      September 30, 2012, we noted that USCIS incorrectly capitalized Electronic Immigration System
      training and data conversion costs.

      During testwork over a sample of Office of the Chief Information Officer project costs as of
      September 30, 2012, we noted the following:
      •	 USCIS incorrectly capitalized Office of the Chief Information Officer training and
         maintenance costs.
      •	 USCIS was unable to provide supporting documentation for capitalized costs.

       Recommendation:
       We recommend that the USCIS Office of Chief Financial Officer (OCFO), Office of
       Transformation Coordination, Office of Information Technology (OIT), USCIS Contracting and
       other involved program offices continue to work together to develop and implement effective
       policies and procedures to ensure the accurate and timely identification and reporting of software
       developments cost.

FMC 12-10 – Deficiencies in the Timely Recording of Capital Equipment (NFR No. USCIS 12-10)

       We reviewed the Property Plant and Equipment (PP&E) activity recorded to the general ledger
       (GL) during FY 2012 and noted that USCIS recorded prior period equipment costs as additions
       for 46 items in the current year.

      In addition, we selected a statistical sample of PP&E transactions related to asset additions and
      disposals, and noted the following:
      •	 USCIS disposed of equipment in the second quarter of FY 2011 but did not record the
          transaction in the GL until the second quarter of FY 2012.
      •	 USCIS was unable to provide supporting documentation for two capitalized equipment
          additions.




                                                   5

                  United States Citizenship and Immigration Services
                          Financial Management Comments
                                 September 30, 2012


Recommendations:
We recommend that the USCIS:
•	 The OCFO, Office of Administration, OIT, and USCIS Contracting continue to work together
   to develop and implement effective policies and procedures that ensure PP&E acquisitions
   are processed in a standardized method.
•	 Roles and responsibilities for ordering, purchasing, delivery, receiving, and establishing
   accountability should be addressed.
•	 Additionally, these procedures should ensure the responsible offices provide accurate
   documentation to the appropriate personnel for timely and accurate data entry into the asset
   management system and financial management system.




                                          6

                                                                                                             Appendix A
                              United States Citizenship and Immigration Services
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                  IAR                FMC
NFR No.       Description                                                               MW        SD        NC        No.
              Inadequate Policies and Procedures over the Review of Personnel
12-01                                                                                                                12-01
              Actions
              Insufficient Reconciliation between Purchase Request Information
12-02                                                                                                                12-02
              System (PRISM) and Federal Financial Management System (FFMS)
              Potential Non-Compliance with Office of Government Ethics (OGE)-450
12-03                                                                                                                12-03
              Filing Requirements
              USCIS Contracting Officers Disregarded DHS Invoice Approval
12-04                                                                                                                12-04
              Requirements
12-05         Insufficient Review of Journal Entries (JEs)                                                           12-05
              Inaccurate Data in the Claims 3 system, Claims 4 system, and Marriage
12-06                                                                                                                12-06
              Fraud Amendment System
12-07         Insufficient Review of Deposit Transactions                                                            12-07
              Inadequate Monitoring of Fee Table Changes in Deferred Revenue
12-08                                                                                                                12-08
              Estimate Process
12-09         Deficiencies in the Recording of Internal Use Software (IUS)                                           12-09
12-10         Deficiencies in the Timely Recording of Capital Equipment                                              12-10

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             7

                                                                                                                   Appendix B
                                 United States Citizenship and Immigration Services
                                             Status of Prior Year NFRs
                                                September 30, 2012


                                                                                                  Disposition1
                                                                                                              Repeat
    NFR No.   Description                                                                         Closed2
                                                                                                              (2011 NFR No.)
    11-01     Lack of Controls over List-to-Floor Manual Processes                                    X
              Deficiencies in the Timely Recording of Capital Property Plant and Equipment
    11-02                                                                                                     USCIS 12-10
              (PP&E)
    11-03     Lack of Policies and Procedures over Non-Itemized Invoices for PP&E                     X
    11-04     Inadequate and/or Inconsistent Supervisory Review of Personnel Actions                          USCIS 12-01
              Inadequate Supervisory Review of the Intra-Departmental Eliminations
    11-05                                                                                             X
              Reconciliation
    11-06     Untimely Change in Accounting Policies and Practices                                    X
              Inadequate Data in the Claims 3 system, Claims 4 system, and Marriage Fraud
    11-07                                                                                                     USCIS 12-06
              Amendment System
              Inadequate Documentation and Untimely Capitalization of Internal Use Software
    11-08                                                                                                     USCIS 12-09
              (IUS)

1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                8

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   U.S. Citizenship and Immigration Services

   Director
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-57

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
